No. 19-1099

In The Supreme Court of the United States
_____
CITY OF BAKERSFIELD, AARON STRINGER,
Petitioners,
v.
LESLIE LARAY CRAWFORD,
Respondent.
_____
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
_____
REPLY BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI
_____
Michael G. Marderosian/Heather S. Cohen
MARDEROSIAN & COHEN
1260 Fulton Street, Fresno, CA 93721/(559) 441-7991
mick@mcc-legal.com/heather@mcc-legal.com
Counsel for Petitioners
City of Bakersfield and Aaron Stringer
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

i
RULE 29.6 STATEMENT
There are no amendments to Petitioner’s corporate
disclosure statement as set forth in the Petition for a Writ
of Certiorari.

ii
TABLE OF CONTENTS
Page
Rule 29.6 Statement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
REPLY IN SUPPORT OF CERTIORARI. . . . . . . . . . . . . 1
I.

RESPONDENT’S CLAIM THAT
EVIDENCE OF THE
DECEDENT’S CONDUCT ON
OTHER OCCASIONS SHOULD
BE ADMITTED TO HELP THE
JURY “VISUALIZE” WHAT WAS
ACTUALLY SEEN BY THE
OFFICER IGNORES LONG
ESTABLISHED PRECEDENT
AND IGNORES BASIC
RULES OF EVIDENCE. . . . . . . . . . . . . . . . 3

II.

THE NINTH CIRCUIT DECISION
CREATED A SPLIT IN CIRCUIT
AUTHORITY ON THE PROPRIETY
OF INTRODUCING EVIDENCE THAT
WAS UNKNOWN TO A POLICE
OFFICER AT THE TIME FORCE
WAS USED. . . . . . . . . . . . . . . . . . . . . . . . . . 6

iii
III.

IN ITS RULING, THE NINTH
CIRCUIT DID CREATE A
SEPARATE ANALYSIS FOR
MENTALLY ILL INDIVIDUALS. . . . . . . . . 9

IV.

THIS ISSUE IS OBVIOUSLY
ONE OF SIGNIFICANT
SOCIETAL IMPORTANCE AND
REQUIRES GUIDANCE FROM
THE UNITED STATES SUPREME
COURT.. . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iv
TABLE OF AUTHORITIES
CASES
Carson v. Polley, 689 F.2d 562 (5 th Cir. 1982). . . . . . . . . . 6
Carter v. District of Columbia,
254 U.S. App. D.C. 71, 795 F.2d 116 (1986).. . . . . . . . . . . 6
Chien Van Buit v. City & Cty of San Francisco,
2018 U.S. Dist. Lexis 33917 (Feb. 27, 2018). . . . . . . . . . . 7
Colter v. Reyes, 2017 U.S. Dist. LEXIS 103617
(E.D. NY July 4, 2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Daily v. City of Phx., 2019 U.S. Dist. LEXIS 192199
(D. AZ Nov. 5, 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Daily v. City of Phoenix, 201 WL 6527298
(D. AZ Aug. 8, 2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Drummond v. City of Anaheim, 343 F.3d 1052
(9th Cir. 2003).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Glenn v. Washington Cty., 673 F.3d 864
(9th Cir. 2011).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Graham v. Connor, 490 U.S. 386 (1989). . . . . . . . . passim
Hayes v. Cty. of San Diego, 736 F.3d 1223
(9th Cir. 2013).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

v
Outley v. City of New York, 837 F.2d 587
(2d Cir. 1988). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Palmquist v. Selvik, 111 F.3d 1332 (7 th Cir. 1997). . . . 8, 9
Rason v. Hardiman, 803 F.2d 269 (7 th Cir. 1986). . . . . . . 8
Rubalcava v. City of Los Angeles, 64 F.3d 1323
(9th Cir. 1995).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Santos v. Gates, 287 F.2d 846 (9 th Cir. 2002). . . . . . . . . . . 7
Sherrod v. Berry, 856 F.2d 802 (7 th Cir. 1988). . . . . . . . . . 8
Ting v. United States, 927 F.2d 1504 (9 th Cir. 1991). . . . . 7
United States v. City of Albuquerque,
2020 U.S. Dist. LEXIS 103158 (D. NM June 12, 2020).. . 4
Wallace v. Mulholland, 957 F.2d 333 (7 th Cir. 1992). . . . . 8
Witt v. West Virginia State Police, Troop 2,
633 F.3d 272 (4 th Cir. 2011).. . . . . . . . . . . . . . . . . . . . . . . . . . 9
CONSTITUTIONAL PROVISIONS AND RULES
Federal Rule of Evidence 404. . . . . . . . . . . . . . . . . 2, 5, 6, 7
Fourth Amendment to the
United States Constitution.. . . . . . . . . . . . . . . . . . . . 1, 2, 8

1
REPLY IN SUPPORT OF CERTIORARI
The Ninth Circuit’s decision in this case creates a
serious conflict with the long established precedent of this
Court and with the Federal Rules of Evidence. The
Respondent’s Brief in Opposition exemplifies exactly why
the Ninth Circuit’s decision needs to be reviewed and
reversed by this Court.
Nothing contained in the
Respondent’s Brief in Opposition refutes the importance of
the issue that this case presents.
The Respondent erroneously characterizes the issue
decided by the Ninth Circuit as a “simple evidentiary issue”;
however, nothing could be further from the truth. In 1989,
this Court clearly established the analysis that is to be
conducted when considering a Fourth Amendment claim.
Since Graham v. Connor, the question has always been
“whether the officers’ actions are ‘objectively reasonable’ in
light of the facts and circumstances confronting them
without regard to their underlying intent or motivation.”
From this decision, the scope of relevant evidence has been
defined as that which the officer knew. There has never
been approval to broaden the inquiry to include evidence
which was not known to the defendant officer because that
simply invites an analysis using 20/20 vision of hindsight,
which is strictly forbidden. That is, until the Ninth Circuit’s
decision in this case.

2
While the Ninth Circuit has repeatedly flouted this
Court’s direction when it came to the issue of qualified
immunity, it has never so brazenly attempted to expand the
Graham analysis to include testimony from a family
member about how the decedent conducted himself on other
occasions to prove the conduct of the defendant officer was
unreasonable on an entirely separate occasion.
The Ninth Circuit’s decision was not a “simple
evidentiary issue.” It expands Graham v. Connor, in a way
that was never envisioned. It violates Federal Rule of
Evidence 404 by allowing the introduction of evidence of
conduct on prior occasions to prove conduct on an entirely
separate occasion. It has created conflict amongst the
circuits in terms of the scope of evidence that should be
admitted in a Fourth Amendment case and it has created an
entirely separate analysis for cases involving individuals
who are purportedly mentally ill. Under the Ninth Circuit’s
decision, the scope of evidence in such cases goes well
beyond what an officer knew or even should have known
and allows the presentation of evidence which is devoid of
any relevance to the Graham analysis whatsoever.
The issue of police encounters with individuals who
purport to suffer from mental illness is obviously not going
away. It is a common occurrence and it is incumbent on
this Court to provide direction so that both parties are
guaranteed a fair trial under Graham and its progeny.

3
Summary reversal, or plenary review, is appropriate
not only to correct the Ninth Circuit’s mistaken view of the
law, but to affirm Graham v. Connor such that the focus
remains on the circumstances the officer confronted and not
on events about which he knew nothing about.
I.

RESPONDENT’S CLAIM THAT EVIDENCE
OF THE DECEDENT’S CONDUCT ON OTHER
OCCASIONS SHOULD BE ADMITTED TO
HELP THE JURY “VISUALIZE” WHAT WAS
ACTUALLY SEEN BY THE OFFICER
IGNORES LONG ESTABLISHED
PRECEDENT AND IGNORES BASIC RULES
OF EVIDENCE

The “Question Presented” that was formulated by the
Respondent is revealing. Specifically, the Respondent
attempts to argue the validity of the Ninth Circuit’s ruling
by suggesting that testimony from a “person with
knowledge of the characteristic behavior and appearance of
the victim,” who was not present on the scene, should be
admitted to “help the jury visualize what was actually seen
by the officer at the time of the incident”. [“Question
Presented” at Brief in Opposition (“Opp.”) p. I; Introduction
at Opp. p. 1.]
However, such testimony runs far afield of Graham
v. Connor, 490 U.S. 386, 397 (1989) and its progeny which
clearly and unequivocally define the question as being
“whether the officers’ actions are ‘objectively reasonable’ in
light of the facts and circumstances confronting them
without regard to their underlying intent or motivation.”
Id. at 397. "[T]he 'reasonableness' of a particular use of

4
force must be judged from the perspective of a reasonable
officer on the scene, rather than with 20/20 vision of
hindsight." Id. In conducting the reasonableness inquiry,
a finder of fact "cannot consider evidence of which the
officers were unaware. . ..” Glenn v. Washington Cty., 673
F.3d 864, 873 n.8 (9th Cir. 2011); See also United States v.
City of Albuquerque, 2020 U.S. Dist. LEXIS 103158 (D.NM
June 12, 2020):
the determination whether a reasonable officer
would have known that the offender suffered
from mental illness is not based on whether it
surfaces after the situation that the offender
suffered from mental illness. Instead, the
determination is based on whether a
reasonable officer at the crime scene would
have known from the circumstances that a
person suffered mental illness. Thus, the
determination is not based on hindsight, which
is using knowledge acquired after the incident,
but the reasonable-officer-on-the-scene
perspective, which is using knowledge
available during the incident.
It is for this reason that information that is not
known to a police officer is routinely excluded. See e.g.,
Glenn v. Washington Cnty., 673 F.3d 864, 873 n.8 (9th Cir.
2011) [Graham teaches that "[w]e cannot consider evidence
of which the officers were unaware"]; Hayes v. Cty. of San
Diego, 736 F.3d 1223, 1233 (9 th Cir. 2013).

5
Yet, the Ninth Circuit’s decision in this case is in
complete contravention to these well established and long
held principles. The evidence that the Ninth Circuit has
expressly authorized in this case was completely unknown
to the defendant officer; yet under the Ninth Circuit’s
decision, a plaintiff can go well beyond what an officer at
the scene knew or perceived or should have known or
perceived. Under the Ninth Circuit’s holding, a plaintiff
may now introduce evidence of prior behavior on other
occasions to prove that the use of force by the defendant
officer on this occasion was unreasonable.
According to Respondent, such evidence would “help
the jury visualize” what the officer was seeing. However, in
truth, what the officer “was seeing” comes in through the
testimony of the officer and from witnesses who also saw
what occurred. The testimony of an individual who was not
even at the scene at the time of the subject incident not only
invites the 20/20 hindsight analysis that is strictly
prohibited but also invites speculation and conjecture
because, in reality, the Respondent cannot actually testify
that her “prior observations” were identical to the decedent’s
behavior during the incident in question because the
Respondent was not actually there. At best, the Respondent
would testify in generalities; however, the Respondent is not
a medical expert and certainly should not be permitted to
ascribe particular behavior as being related to mental
illness.
Further, the Respondent has also unintentionally
exposed the conflict between the Ninth Circuit’s decision
and the Federal Rules of Evidence. Fed. R. Evid. 404 clearly
prohibits the introduction of evidence of behavior on prior

6
occasions for the purpose of proving conduct on the date in
question. See e.g., Carson v. Polley, 689 F.2d 562, 575 (5th
Cir. 1982); Outley v. City of New York, 837 F.2d 587, 592-93
(2d Cir. 1988); Carter v. District of Columbia, 254 U.S. App.
D.C. 71, 795 F.2d 116 (1986).
Yet that is exactly what the Ninth Circuit’s decision
has allowed; the introduction of evidence pertaining to the
conduct of the decedent on prior occasions to prove that he
was acting the same way on the date of the incident.
The Ninth Circuit has a long history of trying to
narrow the doctrine of qualified immunity such that police
officers are not given the benefit of a reasonable mistake.
By and through this decision, the Ninth Circuit is now
trying to expand the scope of evidence that a plaintiff can
introduce to show that a particular use of force was
unreasonable. The Ninth Circuit’s decision is clearly in
conflict with both Graham v. Connor and Fed. R. Evid. 404
and must be re-examined by this Court.
II.

THE NINTH CIRCUIT DECISION CREATED
A SPLIT IN CIRCUIT AUTHORITY ON THE
PROPRIETY OF INTRODUCING EVIDENCE
THAT WAS UNKNOWN TO A POLICE
OFFICER AT THE TIME FORCE WAS USED

It is nonsensical for the Respondent to contend that
there is not a split between the circuits relating to the
introduction of this evidence.

7
The Ninth Circuit’s decision in this case is the only
case that the Petitioner has been able to locate which stands
for the proposition that a family member could testify as to
her observations of decedent on other occasions to prove that
the conduct of a police officer on a different occasion was
somehow unreasonable. District Courts and the Ninth
Circuit had previously and repeatedly reached the opposite
conclusion. See e.g., Chien Van Buit v. City & Cty of San
Francisco, 2018 U.S. Dist. Lexis 33917, at *6 (Feb. 27,
2018)[Holding that what the decedent’s family and friends
knew about his mental illness is not relevant to what the
officers knew or perceived and that such evidence violated
Fed. R. Evid. 404]; Daily v. City of Phx., 2019 U.S. Dist.
LEXIS 192199, at *16 (D. AZ Nov. 5, 2019)[excluding
evidence of mental illness since there was no evidence the
officers knew that the decedent was emotionally disturbed
or mentally ill and specifically rejecting the argument that
the defendants should have perceived that the decedent was
mentally ill]; Drummond v. City of Anaheim, 343 F.3d 1052,
1058 (9th Cir. 2003); Santos v. Gates, 287 F.2d 846, 851 (9th
Cir. 2002); Ting v. United States, 927 F.2d 1504, 1508 (9th
Cir. 1991)[holding that whether a suspect was emotionally
disturbed or mentally ill is only relevant to a
Graham analysis if the officers on scene knew that to be the
case. See also Daily v. City of Phoenix, 201 WL 6527298 (D.
AZ Aug. 8, 2017).
Indeed, the Ninth Circuit reached its decision by
relying on a case which had nothing to do with the frame
work that this Court established in Graham v. Connor and
its progeny which is exactly the framework that was used
not only by the district courts within the Ninth Circuit, but

8
also in the Seventh Circuit and the Second Circuit. See e.g.,
Wallace v. Mulholland, 957 F.2d 333, 336 (7th Cir.
1992)[excluding evidence of decedent’s mental health
condition finding that evidence about the general nature of
a mental condition was irrelevant and prejudicial and that
the subject of the case was the decedent’s actual behavior
and the way the officers responded to it]; Rason v.
Hardiman, 803 F.2d 269, 278 (7th Cir. 1986)[affirming
decision not to receive evidence of decedent’s mental health
history]; Palmquist v. Selvik, 111 F.3d 1332 (7th Cir. 1997);
Sherrod v. Berry, 856 F.2d 802 (7th Cir. 1988)[excluding
evidence that was unknown to police officer at the time of
the use of deadly force];Palmquist v. Selvik, 111 F.3d 1332,
1339 (7th Cir. 1997)[applying Sherrod rule excluding
evidence that was outside the “time frame of the shooting”
as being irrelevant and prejudicial]; Colter v. Reyes, 2017
U.S. Dist. LEXIS 103617 (E.D. NY July 4, 2017) [Excluding
evidence of mental health condition since the involved
officer did not have any knowledge of such condition].
While the Respondent attempts to minimize the split
between the Seventh Circuit and Second Circuit decisions
and the Ninth Circuit decision in this case, an examination
of the case authority from the Seventh and Second Circuits
confirm that their holdings on this issue are consistent with
Graham v. Connor, whereas the Ninth Circuit strained to
reach its decision by relying on an entirely inapposite case
and flawed analysis.
The split between circuits requires this Court to
weigh in on the scope of admissible evidence that should be
permitted in the context of a Fourth Amendment case.

9
Without this Court’s guidance, the Ninth Circuit has
improperly expanded the scope of evidence that will be
considered when determining whether the split second
conduct of a police officer was reasonable.
III.

IN ITS RULING, THE NINTH CIRCUIT DID
CREATE A SEPARATE ANALYSIS FOR
MENTALLY ILL INDIVIDUALS

The Respondent tries to persuade this Court that the
Ninth Circuit’s holding does not create a separate analysis
for mentally ill individuals. However, that is the only
conclusion that can be reached given the clear exception the
Ninth Circuit has created in its holding.
The rule regarding the admissibility of evidence that
is unknown to a police officer has been reiterated time and
time again in Courts across the country – if the police officer
was unaware of the information at the time force was used,
it is not coming in for the jury to consider. See e.g.,
Rubalcava v. City of Los Angeles, 64 F.3d 1323, 1328 (9th
Cir. 1995); Palmquist v. Selvik, 111 F.3d 1332, 1339 (7th Cir.
1997); Witt v. West Virginia State Police, Troop 2, 633 F.3d
272, 275 (4 th Cir. 2011).
The Ninth Circuit’s holding in regard to testimony as
it pertains to mental illness creates a clear exception to the
general rule. That is, while the Ninth Circuit strictly
forbids the introduction of evidence of gang affiliation, drug
use, and/or other arrests if they were unknown to the officer
at the time force was used, the Ninth Circuit will now
permit the introduction of evidence of prior conduct, which
the officer was unaware of, for the purpose of informing the

10
jury that the decedent was mentally ill and/or had
conducted himself in an irrational manner before.
The Ninth Circuit’s holding clearly creates a separate
analysis for mentally ill individuals as there is no other
scenario where evidence pertaining to information that is
otherwise unknown to a police officer would be admitted.
IV.

THIS ISSUE IS OBVIOUSLY ONE OF
SIGNIFICANT SOCIETAL IMPORTANCE
AND REQUIRES GUIDANCE FROM THE
UNITED STATES SUPREME COURT

The Petitioners’ Petition for Writ of Certiorari
highlighted the significance of the issues involved in this
case. Since that time, the issues presented herein have only
been magnified by the current movement advocating police
reform. The use of force by police officers is being
scrutinized now more than ever and the issues presented
herewith are not going to go away. They will only become
more prevalent.
It is incumbent on this Court to provide some clear
guidance given the conflicting decisions throughout this
Country and the Ninth Circuit’s clear departure from the
Graham analysis.

11
CONCLUSION
The Court should either summarily reverse the
Judgment of the Ninth Circuit Court of Appeals, or grant
the Petition for Writ of Certiorari, set the case for full
merits briefing and argument, and reverse the Judgment
below.
Respectfully submitted,
Michael G. Marderosian
Heather S. Cohen
MARDEROSIAN & COHEN
1260 Fulton Street
Fresno, CA 93721
(559) 441-7991
Attorneys for Petitioners
City of Bakersfield and
Aaron Stringer

